No.

IN THE
SUPREME COURT OF THE UNITED STATES

fWte2-

— PETITIONER

(Your Name)

— RESPONDENT(S)
PROOF OF SERVICE

r, fytWw

, do swear or declare that on this date,
, 20 Xa as required by Supreme Court Rule 29 I have
2o
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
e names and addresses of those served are as follows:

ikflm HMer A#y (hy.
•£-

%iasr\gh

\a>A

EM slim___

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 20_Za

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Ohrh’?-

— PETITIONER

(Your Name)

— RESPONDENT(S)
i
PROOF
OF SERVICE
, do swear or declare that on this date,
, 20 ?Q, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

Y Cm. flT lflufr
co

m'hrig.V ^Var

____

3

->JUA\ f

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

<T.

e^> ^

,20ZP
(Signatu SORJigHVED
UUI 2 - 2820
OFFICE OF THE CLERK
SUPREME COURT. US.

